No. _____________
IN THE
SUPREME COURT OF THE UNITED STATES

JIMMY PIKE
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Jimmy Pike, pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6), asks
leave to file the accompanying Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit without prepayment of costs and to
proceed in forma pauperis. Petitioner was represented by counsel appointed
under the Criminal Justice Act, 18 U.S.C. ยง 3006A(b) and (c), in the United
States District Court for the Northern District of Texas and on appeal to the
United States Court of Appeals for the Fifth Circuit.
Respectfully submitted this the 3rd day of December, 2020.

Pia Rebecca Lederman
Counsel of Record
LEDERMAN LAW FIRM
721 W. Abram
Arlington, Texas 76013
(817) 860-8888
pia@ledermanlawfirm.com
Attorney for Petitioner

